                  Office of Inspector General
                  U.S. Department of the Interior

                  Evaluation Report




   Department of the Interior Roads Programs
          The Dangers of Decentralization



Report No. C-EV-MOA-0003-2009           February 2010
                     United States Department of the Interior
                                 OFFICE OF INSPECTOR GENERAL
                                      Washington, DC 20240




                                                                                  FEB 0 1 2010


Memorandum

To:            Assistant   Secretary, Fish and Wildlife and Parks
               Assistant   Secretary, Indian Affairs
               Assistant   Secretary, Land and Minerals Management
               Assistant   Secretary, Water and Science

                                    71~2L (t ~'I- cf
                                                                  1

From:          Mary L. Kendall '                            tl-       (

               Acting Inspector Generii     J
Subject:       Department of the Interior' s Roads Programs - The Dangers of Decentralization
               (C-EV -MOA-0003-2009)

        This memorandum transmits our evaluation report on the Department of the Interior' s
(DOlor Interior) roads programs. We performed this evaluation to determine iflnterior' s
bureaus have identified and prioritized their roads needs, developed project implementation
plans, and installed systems to account for funds expended toward roads projects.

        We found significant inaccuracies in roads inventories that affect the ability of bureaus to
identify needs correctly and inefficiencies in the processes that bureaus use to prioritize their
needs. All bureaus have project implementation plans and the ability to track spending. Two of
the bureaus, however, Bureau of Indian Affairs (BIA) and Bureau of Land Management (BLM),
lack sufficient safeguards to adequately detect misuse and mismanagement of funds.

      To improve management, increase consistency, and better communicate with the
Department of Transportation (DOT), which jointly manages the majority oflnterior roads, we
recommend establishing one DOl-level office or group to oversee all 001 roads programs.

        Please have a written response forwarded to this office within 30 days that identifies
plans to address our findings and recommendation so that we may track the status of
implementation. Should you have any questions, please do not hesitate to contact me at
(202) 208- 5745.
EXECUTIVE SUMMARY
Why We Performed This Evaluation

We evaluated the Department of the Interior’s roads programs at the request of the Congress. We
limited our focus specifically on answering the following four questions:

       Have the bureaus identified their roads needs?

       Do the bureaus have mechanisms in place for prioritizing their needs?

       Have the bureaus developed implementation plans for roads projects?

       Do the bureaus have systems in place to account for funds expended toward roads
        projects?

Our evaluation included roads programs at the Bureau of Indian Affairs (BIA), National Park
Service (NPS), U.S. Fish and Wildlife Service (FWS), and the Bureau of Land Management
(BLM). The Bureau of Reclamation (BOR) also manages roads; however, we excluded BOR
from our evaluation due to its small roads inventory. (See Appendix A for a complete list of
abbreviations and acronyms used throughout the report and Appendix B for our scope and
methodology).

What We Found

We identified problems in the areas of:

    Inventory: Significant inaccuracies exist in roads inventories that affect the identification of
    needs, skew funding levels, and may lead to either an overestimation or underestimation of
    public road miles.

    Prioritization and Implementation: Inadequacies exist in prioritizing needs, as well as in
    implementing transportation plans. Not all bureaus have processes in place.

    Accountability: All the bureaus reviewed have the ability to track spending. The way BIA
    and BLM track spending, however, brings into question their ability to adequately detect the
    misuse and mismanagement of funds.

Interior has not provided Department-level oversight to adequately manage its roads programs.
Rather, each bureau is responsible for framing its own roads programs. We believe that this
decentralization has led to the problems we have identified.




                                                  2 
 
BACKGROUND ON ROADS PROGRAMS
Roads Universe
 
Five Interior bureaus manage approximately 186,7131 miles of roads that are designated for
either public or administrative use (see below). The roads inventory includes unpaved roads
(primarily dirt and gravel) and paved roads. More than 50 percent of the total miles have been
identified as being in poor condition.

                                                     Miles of 
                                                   Roads, BOR, 
                                                   1,863, (1%)
                                                                  Miles of 
                                                                Roads, BLM,                  Miles of 
                                                                  76,000,                   Roads, BIA, 
                                                                   (41%)                     94,400, 
                                                                                              (50%)




                                                  Miles of                               Miles of 
                                                Roads, FWS,                            Roads, NPS, 
                                                4,900, (3%)                            9,550, (5%)

                                                                  DOI’s Universe of Roads


The deferred maintenance costs2 associated with DOI roads are estimated to be:

                       $181 million for BIA,

                       $4.9 billion for NPS,

                       $1.5 billion for FWS, and

                       $226 - $276 million for BLM. 

Roads Programs
The Departments of the Interior and Transportation jointly manage three programs through the
use of memorandums of agreement. The responsible office within Transportation is Federal
Lands Highway (FLH), which provides program stewardship and transportation engineering
                                                             
1 All numbers used in this evaluation are based on information provided by the bureaus, or FLH. 
2 Current as of January 2010. 




                                                                               3 
 
services for the planning, design, construction, and rehabilitation of highways, roads, parkways,
bridges, and transit facilities that provide access to or within federally owned lands, national
parks, and Indian reservations. We briefly describe the jointly managed programs below.

The Indian Reservation Roads (IRR) Program provides funds for roads to, within, and
through Indian reservations, whether owned by BIA or other State or local agencies. The IRR
system consists of nearly 33,000 miles of public roads and 940 bridges owned by BIA and Tribal
governments and over 61,000 miles of public roads owned by State and local governments and
other entities. By way of comparison, the entire Interstate Highway System has a total length of
46,876 miles, less than half the mileage of the IRR system (94,400 miles of roads).
Approximately 73,320 miles or 78 percent of IRR roads are unpaved. 

The Park Roads and Parkways (PRP) Program provides funds for public roads that make
access available to or within national parks, recreation areas, historic areas, or other NPS units.
The inventory includes 9,550 miles of roads, as well as 1,414 bridges and 63 tunnels.
Approximately 4,100 miles or 43 percent of the roads are unpaved.

The Refuge Roads Program provides funds for approximately 4,900 miles of public roads that
grant access to or within units of the National Wildlife Refuge (NWR) System, as well as 265
bridges and 5,153 parking lots. The NWR System includes approximately 548 wildlife refuges in
all 50 states, Puerto Rico, Guam, and the U.S. Virgin Islands. FLH funding is provided primarily
for the design, reconstruction, maintenance, or improvement of Refuge Roads. Approximately
4,508 miles or 92 percent of the roads are unpaved.

Funding of Roads Programs

Funding for DOI roads programs comes from two primary sources.3 The first source is the Safe,
Accountable, Flexible, and Efficient
Transportation Equity Act: A Legacy for
Users (SAFETEA-LU). SAFETEA-LU                             Title 23 U.S.C.
provides guaranteed funding for                Safe, Accountable, Flexible, Efficient
highways, highway safety, and public         Transportation Equity Act: A Legacy for
transportation over a 5-year period (FY                         Users
2005 – FY 2009) that totals $244.1
billion. This amount includes $4.5 billion  Signed into law by President George W. Bush
for transportation projects on or accessing on August 10, 2005, SAFETEA-LU governs
federal lands. For the bureaus with
                                            U.S. federal surface transportation spending.
SAFETEA-LU authorizations (BIA, NPS,
and FWS), FLH serves primarily as a         The legislation expired September 30, 2009.  
pass-through vehicle.

SAFETEA-LU funds can be used for transportation planning, research, engineering, and
construction of highways, roads, parkways, and transit facilities within public lands, national
                                                             
3 Specifics on the funding for FY 2008 and FY 2009 are provided in Appendix C. 




                                                                4 
 
parks, and Indian reservations; FLH projects are 100 percent federally funded. In addition,
SAFETEA-LU funds can be used as the State/local match for most types of federal-aid highway
funded projects.


                            SAFETEA-LU Funding Levels
                       DOI Program                         FY2009 Funding Levels

                Indian Reservation Roads                         $450 million

                Park Roads and Parkways                          $240 million

                       Refuge Roads                               $29 million


SAFETEA-LU does not fund routine maintenance of public roads. The Act, however, does
permit up to 25 percent of the IRR Program funds to be used for the maintenance of the IRR
System. The actual percentage of IRR funds for maintenance is determined by individual tribes.

The second source is DOI funding for construction and maintenance projects, which comes
through as line items in bureau budgets. To obtain these funds, road projects must compete with
other construction and maintenance projects within the respective bureaus.


W HAT W E L EARNED
Inaccuracies Skew Inventories
Maintaining an accurate inventory of roads and their condition is the first step in the successful
management of a transportation network. NPS and FWS have well established, regularly
updated, accurate road inventory and condition databases in place to help identify their needs.
We found that BIA and BLM, the two largest road programs with respect to mileage, did not
have adequate inventories.

We were told by bureau officials that, while BIA and BLM both maintain road inventories, their
databases may not match their actual roads. In the case of BIA, we were provided information,
both written and verbal, that shows a 60 percent increase in total IRR inventory miles from FY
2005 (62,000 miles) to FY 2007 (102,000 miles), a 40,000 mile unexplained increase.

BIA’s mileage inventory may be inaccurate because:

       road mileage was underreported in previous years;

       tribes self-report road miles on their reservations with little to no on-site, independent
        verification performed; and,

                                                  5 
 
       IRR funds are allocated using a formula that creates a situation in which tribes actually
        have an incentive to overstate assets to secure more funding.
These conditions may increase the likelihood of potential fraudulent activities within BIA.

Our observations also suggest that BLM underestimates its inventory. BLM program officials
and staff personnel at State offices told us during interviews that BLM’s inventory is incomplete
because some of the least used and poorest conditioned roads have been omitted (i.e.,
undocumented roads). BLM considers most of its 76,000 miles of documented roads to be for
administrative and not public use. According to BLM documents, however, the public now uses
many undocumented roads for multiple everyday life activities — particularly off-highway
vehicle recreational use. Changing demographics, increased access, and shifting travel patterns
have contributed to the public use of roads not designed or constructed for multipurpose or
multivehicle use. These roads have proven to be difficult to identify and manage. Furthermore,
unrestricted usage and access are causing BLM roads to deteriorate at higher than expected rates.
This deterioration makes maintenance, which has often been deferred, essential to ensuring
public safety. BLM’s current emphasis is on maintaining roads in its documented inventory.
Consequently, other roads within the BLM network may go unattended. In some of the worst
cases, BLM has decided to forego any attempts to maintain roads and to allow them to return to
their original states. Potential liability issues could arise from this decision.

Without additional independent assessments to verify and validate the BIA and BLM
inventories, we could not be assured that public funds are being spent in accordance with laws,
regulations, and policies.

Problems Plague Project Prioritization and Implementation
Once needs have been identified, bureaus must prioritize or rank by importance the projects they
wish to complete and then develop plans to implement the projects. Not only do prioritization
procedures differ among the bureaus,
implementation of projects varies greatly.
                                                         Road Maintenance Definitions
Both NPS and FWS have clearly defined
priorities and processes in place to identify          3R refers to Repair, Resurfacing, and
their needs. They routinely place a high           Rehabilitation  of existing roads and directly
emphasis on maintaining roads that are               addresses deferred maintenance concerns.
already in good condition by focusing their           4R refers to Reconstruction projects and
road maintenance spending on what are called         includes realignment of existing roads or
“3R” maintenance activities — repair,               upgrade replacement roads, e.g. replacing a
resurfacing, and rehabilitation. They spend         gravel road with a paved road. 4R projects
less on the “4R” reconstruction projects,                require an environmental review.
which tend to be substantially more
expensive. They believe that performing 3R
maintenance on roads already in fair or good condition extends the service life of those surfaces
and saves money in the end.


                                                 6 
 
While we are not in a position from an engineering perspective to judge the merits of this method
of prioritization, it is apparent that roads in poor condition could go unmaintained. Such lack of
maintenance drives up the deferred maintenance backlogs and causes the most expensive, time-
consuming work to be delayed — an issue well noted in previous report findings.4

The prioritization processes for BIA and BLM are less well defined then those observed with
NPS and FWS. BIA’s prioritization process appears to be more decentralized and driven by
tribal input. BIA requires tribes to submit 5-year Transportation Improvement Plans (TIPs)5 to
FLH for approval but allows the tribes to alter their plans as often as they wish. In at least one
instance, a high turnover rate in tribal leadership combined with shifting priorities and
unrestricted plan alterations defeated the purpose of long-term planning and prioritization. BLM
also requires State offices to submit 5-year TIPs, although we discovered that not all States meet
this requirement, which makes long-term planning equally difficult.

We found that both NPS and FWS have clearly articulated implementation plans and processes.
FWS produced a series of project checklists and individual project agreements with FLH. As part
of its implementation process, FWS has a Stewardship and Oversight Agreement with FLH that
covers planning, programming, construction, reconstruction, and improvements related to public
use roads and bridges. The quality assurance/quality control component within the plan has yet
to be implemented fully, however, which brings into question FWS’s ability to ensure
appropriate oversight. We found no significant issues with NPS.

BIA and BLM identified their 5-year TIPs as their implementation plans. Neither bureau
provided plans as extensively detailed as those observed with NPS and FWS.

Accountability Is Lax
While NPS and FWS manage roads funds quite well, neither BIA nor BLM have exercised
sufficient oversight to ensure that roads funds are being properly managed and used for intended
purposes.

Specifically, BIA lacks control of its accounting practices and cannot ensure appropriate funds
use. The OIG exposed this failure previously in its flash report6 on the BIA Alaska Region’s
abuse of IRR funding. For example, use of the formula that determines allocation of the majority
of IRR funds allows tribes to misrepresent road mileage and conditions under their domains. The
two largest factors in the formula are vehicle miles traveled (VMT) and cost to construct (CTC).
VMT is the sum of the length of IRR route segments in a tribe’s inventory multiplied by the
average daily traffic of each route segment. CTC is the total cost required to bring the
transportation facility up to industry standards. These two factors make up 80 percent of the
                                                             
4 GAO–09‐425T. Department of the Interior Major Management Challenges reported testimony by Robin M. 

Nazzaro, Director, Natural Resources and Environment, that pertained to a discussion on reducing Interior’s 
deferred maintenance backlog. 
5 The TIPs identify road projects for resurfacing, restoration, and rehabilitation. 
6 DOI OIG Flash Report: BIA Alaska Regional Indian Reservation Roads Program Rife with Mismanagement 

and Lacking Program Oversight.  WR‐IV‐BIA‐0001‐2009, February 2009. 


                                                                7 
 
formula; both are dependent on self-reported data. BIA has no controls to confirm that self-
reported data are accurate.

After the allocations are calculated, funding is provided to the tribes in a lump sum. Legally, this
funding can only be used on projects that have been identified in an FLH-approved TIP. Neither
FLH nor BIA, however, appears to have the resources needed to adequately monitor and verify
how money is being spent. Combined with inadequate inventory oversight, no accurate method
is in place for either agency to ensure that funds are spent appropriately.

Our interviews with BLM Washington Office officials revealed that, in some instances, field
offices are not using roads funding for its designated purposes and that BLM State offices do
little or no follow-up. BLM’s ability to follow-up has been hampered by a recent switch to new
accounting software, the Financial and Business Management System (FBMS). FBMS does not
assign unique annual road maintenance project codes. As reported by BLM and confirmed
during our evaluation, funds cannot be readily tracked on a per-project basis.

To its credit, BLM is currently taking steps to correct this problem through the development of
an interface between the Facility Asset Management System and FBMS. By doing so, BLM
officials believe they will have greater control over project funds. BLM, however, provided no
timeline for completion of this initiative.

Without a formal process to track funds and check for improper use, the risk of wasteful or
fraudulent use of public money is and will remain unacceptably high. Greater management
oversight and incentives are needed to compel tribes (under BIA) and field offices (under BLM)
to properly account for roads funding.


WHAT IS WORKING
Out of all the bureaus evaluated, NPS was the only bureau that used an automated road analyzer
system for inventory and condition assessments as part of its Road Inventory Program (RIP)7.
This system provides an accurate and objective report on pavement condition, which allows
officials to efficiently prioritize and allocate funding. It is likely that other bureaus found using a
pavement analyzer to be cost prohibitive due to their low percentage of paved roads. As a way of
standardizing pavement assessments for cost-efficiency, sharing automated road analysis systems
across bureaus could be a universally beneficial solution.

NPS also has the most promising process in place for project implementation and accounting of
funds. Although most bureaus had 5-year plans and some had project delivery guidance, none
had plans as extensive as those in place at NPS. NPS and FLH jointly published the “Park Roads
and Parkways Program Handbook, Guidelines for Program Implementation,” a 63-page
document that outlines and explains every aspect of the Program. The Handbook includes
Program goals, performance measures, funding sources, joint and individual responsibilities of
                                                             
7 The Federal Highway Administration RIP for NPS collects roadway condition data on paved asphalt surfaces, 

including roads, parkways, and parking areas in national parks nationwide.   


                                                                8 
 
the two agencies, transportation planning, Program development, funds management, and project
delivery.

We also found the NPS project tracking system to be the most robust system of its type within
the bureaus evaluated. The PRP Transportation Allocation and Tracking System (PTATS) allow
both NPS and FLH to request, approve, allocate, and track funding for each individual project
undertaken. It also interfaces with NPS’s Administrative Financial System and tracks funding for
the individual stages of project planning, development, construction engineering, administration,
and actual construction. In fact, FWS, itself, has seen this tracking system as a promising
practice and is currently developing software to match NPS capability.


C ONCLUSIONS
Overall, we found that Interior exercises no centralized oversight of roads program activities
within the bureaus. The resultant decentralization has led to a number of inconsistencies and
adversely affected program transparency and efficiency, funds accountability, and most
importantly public safety. With such large percentages of roads in poor condition, the number of
accidents seems certain to increase, along with resultant physical harm. In turn, Interior has
placed itself in jeopardy of litigation. Decisions made to refrain from or avoid performing roads
maintenance risk charges of negligence.

From our conversations with DOT, we know that at least one department, the Department of
Defense, has a centralized entity related to roads programs. FLH and the Military Surface
Deployment and Distribution Command (SDDC) jointly administer the Defense Access Roads
Program. SDDC oversees the selection and prioritization of funding for all road-related activities
recommended by the individual DOD Services.


RECOMMENDATION

Based on our findings, we strongly recommend that Interior:

       Establish a DOI-level office or group able to provide centralized, consistent, systematic
       oversight of the different FLH-supported roads programs and to serve as a focal point for
       interaction with DOT.




                                                9 
 
                                                                                  Appendix A 


                  A BBREVIATIONS , A CRONYMS , AND
                     O THER R EFERENCE T ERMS
BIA                Bureau of Indian Affairs

BLM                Bureau of Land Management

BOR                Bureau of Reclamation

CTC                Cost to Construct

Interior or DOI    Department of the Interior

Transportation
or DOT             Department of Transportation

FBMS               Financial and Business Management System

FLH                Federal Lands Highway

FWS                U.S. Fish and Wildlife Service

IRR                Indian Reservation Roads

NPS                National Park Service

NWR                National Wildlife Refuge

PRP                Park Roads and Parkways

PTATS              Park Roads and Parkways Transportation Allocation and Tracking
System

RIP                Road Inventory Program

SAFETEA-LU         Safe, Accountable, Flexible, Efficient Transportation Equity Act: A
                   Legacy for Users

TIP                Transportation Improvement Plan

VMT                Vehicle Miles Traveled

                           




 
                                                                                      Appendix B 


                         S COPE AND M ETHODOLOGY
We performed this evaluation in accordance with the President’s Council on Integrity and
Efficiency and the Executive Council on Integrity and Efficiency “Quality Standards for
Inspections.” The evaluation focused on the identification and prioritization of the needs of
Interior’s roads programs, as well as the implementation of roads projects and accounting of
roads funds.

Specifically, we reviewed program documents and selected reports (Appendix D); conducted
interviews with key personnel from each of the bureaus; and performed site visits to a limited
number of locations to ascertain the scale of the various roads programs. We also conducted
limited interviews with FLH personnel.

We believe that the work performed provides a reasonable basis for our conclusions and
recommendations. As part of our evaluation, we:

       obtained a general understanding of roads programs managed by BIA, NPS, FWS,
        and BLM;

       conducted site visits and interviewed officials from the various Interior bureaus; 

       interviewed DOT officials from FLH;

       reviewed documentation and reports internal to the respective bureaus and the sites
        we visited;

       performed other work that we considered necessary; and

       reviewed laws and regulations that prescribe the requirements of roads programs on
        federal lands. This included Title 23 U.S.C.; SAFETEA-LU; the Government
        Performance and Results Act; and the Tribal Self Governance Act of 1994.  
             




                                                
 
                                                                                                           Appendix C 



                 F UNDING L EVELS AND S OURCES FOR DOI R OADS                                                   
                                                                               FUNDING SOURCE
                                                                              (in Millions of Dollars)
                                                                       FY 2008                       FY 2009

    BUREAU                  PROGRAM/ACTIVITY                    SAFETEA-LU            DOI     SAFETEA-LU           DOl

                             IRR (including bridges)                 $410               -          $450              -
      BIA
                                       Maintenance8                  $102.5          $25.6        $112.5           $26.0

                         Park Roads and Parkways                     $225               -          $240              -
      NPS                              Construction9                   -              $122           -             $149

                                       Maintenance10                   -              $336           -             $373

                                      Refuge Roads                    $29               -           $29              -
      FWS
                                       Maintenance10                   -             $67.8           -             $67.8

                                       Construction9                   -              $6.4           -             $6.6
     BLM
                                       Maintenance10                   -             $68.4           -             $67.9
 

                                                            




                                                             
8 Up to 25 percent of a tribe’s IRR Program funds may now be used for the purpose of IRR system 

maintenance, as defined in 25 CFR § 170. BIA retains primary responsibility for IRR maintenance through 
DOI appropriations. 
9 Funding for all bureau construction related projects — not limited to road projects. 
10 Funding for all bureau maintenance related projects — not limited to road projects.  




                                                                  
 
                                                                                   Appendix D 


                                                                                           
                     S ELECTED R EPORTS R EVIEWED
 

   GAO-09-425T: Department of the Interior, Major Management Challenges

   GAO-09-435T: Transportation Programs, Challenges Facing the Department of
    Transportation and Congress

   GAO-09-316: Highway Trust Fund: Improved Solvency Mechanisms and
    Communication Needed to Help Avoid Shortfalls in the Highway Account

   U.S. Department of the Interior, Office of Inspector General, Report No. WR-IV-BIA-
    0001-2009, February 2009: BIA Alaska Regional Indian Reservation Roads Program
    Rife with Mismanagement and Lacking Program Oversight

   U.S. Department of the Interior, Office of Inspector General, Report No. C-RR-BIA-
    0010-2006: Program Assessment Rating Tool, Review of Bureau of Indian Affairs Road
    Maintenance Program

   Expectmore.gov, Program Assessment: Bureau of Indian Affairs — Operation and
    Maintenance of Roads

   Expectmore.gov, Program Assessment: Federal Lands Highway Program



 

 

 

 

 

 

 

 

 

                              




                                              
 
 




                                                                         
            Report Fraud, Waste, Abuse ,
               and Mismanagement  
                  Fraud, waste, and abuse in government
                  concerns everyone: Office of Inspector
                  General staff, Departmental employees,
                    and the general public. We actively
                  solicit allegations of any inefficient and
                    wasteful practices, fraud, and abuse
                  related to Departmental or Insular Area
                 programs and operations. You can report
                      allegations to us in several ways.




                      
        By Mail :            U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 4428 MIB
                             1849 C Street, NW
                             Washington, D.C. 20240
         
                     
        By Phone             24-Hour Toll Free             800-424 -5081 
                             Washington Metro Area         703-487 -5435 
         
                     
        By Fax               703-487-5402
         
                          
        By Internet          www.doioig.gov /hotline
     

 




                                         
 
